No. ___________
IN THE SUPREME COURT OF THE UNITED STATES
________________________
SHAKEEL KAHN,
Petitioner,
V.

UNITED STATES OF AMERICA,
Respondent.
________________________
On Petition for Writ of Certiorari to the United
States Court of Appeals for the Tenth Circuit
________________________
APPENDIX TO PETITION FOR WRIT OF CERTIORARI
________________________

Beau B. Brindley
COUNSEL OF RECORD
And Blair T. Westover
For Petitioner Shakeel Kahn
Law Offices of Beau B. Brindley
53 W Jackson Blvd. Ste 1410
Chicago IL 60604
(312)765-8878
bbbrindley@gmail.com

INDEX TO APPENDICES
APPENDIX A - Court of Appeals Opinion Affirming Judgment ...............................A1
APPENDIX B – District Court Final Amended Judgment Order ...........................A41
APPENDIX C - District Court Memorandum Opinion denying new trial ..............A52
APPENDIX D - Excerpt from May 1, 2019 trial transcript, jury instruction
conference ...................................................................................................................A58

2

Appellate Case: 19-8054

Document: 010110485078

Date Filed: 02/25/2021

Page: 1

PUBLISH

FILED
United States Court of Appeals
Tenth Circuit

UNITED STATES COURT OF APPEALS

February 25, 2021

FOR THE TENTH CIRCUIT
_________________________________

Christopher M. Wolpert
Clerk of Court

UNITED STATES OF AMERICA,
Plaintiff - Appellee,
No. 19-8051

v.
NABEEL AZIZ KHAN, a/k/a Sonny, a/k/a
Nabeel Aziz Kahn,
Defendant - Appellant.
–––––––––––––––––––––––––––––––––––
UNITED STATES OF AMERICA,
Plaintiff - Appellee,

No. 19-8054

v.
SHAKEEL KAHN,

Defendant - Appellant.
_________________________________
Appeals from the United States District Court
for the District of Wyoming
(D.C. Nos. 2:17-CR-00029-ABJ-4 & 2:17-CR-00029-ABJ-1)
_________________________________
Mark Baker (Rebekah A. Gallegos, with him on the briefs), Peifer, Hanson, Mullins &
Baker, P.A., Albuquerque, New Mexico, appearing for Appellant Nabeel Aziz Khan.
Beau B. Brindley (Blair T. Westover, with him on the briefs), Chicago, Illinois,
appearing for Appellant Shakeel Kahn.

Appendix A

A1

Appellate Case: 19-8054

Document: 010110485078

Date Filed: 02/25/2021

Page: 2

Stephanie I. Sprecher, Assistant United States Attorney (Mark A. Klaassen, United States
Attorney; Stephanie A. Hambrick and David A. Kubichek Assistant United States
Attorneys, with her on the briefs), Office of the United States Attorney for the District of
Wyoming, Casper, Wyoming, appearing for Appellee.
_________________________________
Before BRISCOE, MATHESON, and CARSON, Circuit Judges.
_________________________________
BRISCOE, Circuit Judge.
_________________________________
Defendant Nabeel Aziz Khan (“Nabeel”) and his brother, Defendant Dr.
Shakeel Kahn (“Dr. Kahn,” collectively “Defendants”),1 challenge their drug
trafficking and money laundering convictions following a jury trial in the United
States District Court for the District of Wyoming. Defendants were tried together;
they appeal separately. Because their appeals raise several overlapping issues, we
address both appeals in this opinion.
We conclude that the search of Dr. Kahn’s Arizona residence was proper. The
magistrate judge who issued the warrant had a substantial basis for concluding that
the affidavit in support of the warrant established probable cause. Further, the
seizure of items not listed in the warrant was supported by the plain view doctrine.
The searches of Dr. Kahn’s Wyoming residence and Wyoming business were also
proper. The district court’s instruction regarding liability under § 841 was correct
because this court has previously held that criminal liability under § 841 is

1

Although Defendants are brothers, they spell their last names differently. In
the interest of clarity, we refer to Nabeel Khan by his first name, and Dr. Shakeel
Kahn as “Dr. Kahn,” as Defendants do in their briefing.
2

A2

Appellate Case: 19-8054

Document: 010110485078

Date Filed: 02/25/2021

Page: 3

disjunctive, not conjunctive. Nabeel’s challenge to the district court’s good faith
instruction falls victim to forfeiture as he raises a different theory on appeal than he
presented to the district court. The district court’s good faith instruction correctly
stated the law as to Dr. Kahn because “good faith” is not a defense as to mens rea,
but rather is a defense as to the lawfulness of a prescription. The district court’s
intent instruction did not burden Dr. Kahn’s right to testify on his own behalf because
it did not direct the jury on how to weigh Dr. Kahn’s testimony. The evidence was
sufficient to sustain Nabeel’s conviction because the evidence shows Nabeel knew
Dr. Kahn’s prescriptions were unlawful. And finally, the objectionable testimony
identified by Dr. Kahn in his motion for a new trial was inconsequential in light of
the overwhelming evidence of guilt.2 Accordingly, exercising jurisdiction pursuant
to 28 U.S.C. § 1291, we affirm.
I
In 2008, Dr. Kahn started a medical practice in Ft. Mohave, Arizona. Later
that year, Nabeel arrived in Arizona and began assisting with managing Dr. Kahn’s
practice. Nabeel’s responsibilities included checking patients in, taking their vitals
such as blood pressure or body weight, and processing their payments.
After Nabeel’s arrival, Dr. Kahn’s practice shifted towards pain management.
Dr. Kahn regularly prescribed patients various controlled substances, including

2

Dr. Kahn also initially raised a challenge to the district court’s causation
instruction. Because Dr. Kahn conceded that issue on reply, we decline to address it.
See Dr. Kahn’s Reply Br. at 22.
3

A3

Appellate Case: 19-8054

Document: 010110485078

Date Filed: 02/25/2021

Page: 4

oxycodone, alprazolam, and carisoprodol. As time went on, Dr. Kahn spent less time
with patients, and the patients he did see were almost exclusively for pain
management. The prescriptions he wrote aligned closely with what patients were
able to pay, rather than the patients’ medical need; when patients were prescribed
more pills, Dr. Kahn charged more for his medical services, and when patients could
not afford the price of the prescription, Dr. Kahn prescribed fewer pills, or withheld a
prescription entirely. The price of prescriptions also closely tracked the “street
price” of the pills, which Dr. Kahn often discussed with patients. In addition to
shifting towards pain management, Dr. Kahn’s practice also shifted to a primarily
“cash-only” basis, although he also accepted payment in personal property, including
firearms.
After a patient died, Dr. Kahn commented “[s]he was probably selling her
prescriptions for illegal drugs.” App., Vol. VI at 2573.3 In fact, many of Dr. Kahn’s
patients sold pills so they could afford their prescriptions. See, e.g., id. at 2566,
3559. Nabeel also spoke with at least one patient about a TV news report that
described patients who illegally sold their prescription medication.
In 2013, Nabeel helped Dr. Kahn draft a “drug addiction statement,” which
patients were required to sign. By signing the drug addiction statement, patients
swore that Dr. Kahn was not a “drug dealer,” that they were not “addicts,” and that
they would be liable to Dr. Kahn, or his officers and agents, for $100,000 for any

3

All citations to the record are to Appellant’s Appendix in 19-8051, United
States v. Nabeel Khan, unless otherwise specified.
4

A4

Appellate Case: 19-8054

Document: 010110485078

Date Filed: 02/25/2021

Page: 5

civil or criminal action brought against Dr. Kahn, or his officers and agents, as a
result of any action taken by the patient. See id., Suppl. Vol. I at 134; id., Vol. VI at
4461. At trial, an expert witness for the government opined that Defendants’ “drug
addiction statement” was neither an “appropriate” nor “acceptable” way to advise a
patient. Id., Vol. VI at 1418.
Beginning in late 2012, pharmacies in the Ft. Mohave area began refusing to
fill prescriptions issued by Dr. Kahn. In 2015, Dr. Kahn opened a second practice in
Casper, Wyoming. During that time, Dr. Kahn continued to travel to Arizona to see
patients about once per month; other patients travelled to Wyoming to see Dr. Kahn.
Nabeel also met patients in parking lots to exchange their prescriptions for cash. Dr.
Kahn maintained offices and residences in both Arizona and Wyoming during this
time, although he primarily resided in his Wyoming residence. Nabeel primarily
resided at Dr. Kahn’s Arizona residence. Nabeel also acted as office manager for the
Arizona office. Dr. Kahn’s wife, Lyn Kahn, acted as office manager for the
Wyoming office. As part of her role as office manager, Lyn Kahn forwarded calls
from the Wyoming office to her cell phone to schedule appointments and arrange
payments.
In 2016, in the course of investigating Dr. Kahn’s prescribing practices, the
government intercepted a call between Dr. Kahn and Lyn Kahn. During that call, Dr.
Kahn, while cleaning his Wyoming office, indicated that he would bring some patient
files to his Wyoming residence. Pursuant to a warrant, officers searched Dr. Kahn’s
Arizona residence, his Wyoming residence, and “Vape World,” a Wyoming business
5

A5

Appellate Case: 19-8054

Document: 010110485078

Date Filed: 02/25/2021

Page: 6

owned by Dr. Kahn and Lyn Kahn. In searching Dr. Kahn’s Arizona residence,
officers seized patient files pursuant to the warrant; they also seized U.S. currency,
firearms, and automobiles, although those items were not listed on the warrant as
items to be seized.
Defendants and Lyn Kahn were charged in a 23-count indictment, alleging,
among other charges, that the Defendants and Lyn Kahn conspired to dispense and
distribute controlled substances resulting in death in violation of 21 U.S.C. §§ 841
and 846, that Defendants possessed firearms in furtherance of a federal drug
trafficking crime in violation of 18 U.S.C. § 924(c)(1), and Dr. Kahn engaged in
monetary transactions derived from specified unlawful activity in violation of 18
U.S.C. § 1957 (money laundering). App., Vol. I at 327. Prior to trial, Lyn Kahn pled
guilty to the conspiracy charge against her.
Defendants moved to suppress evidence gathered from the searches of Dr.
Kahn’s Arizona residence, his Wyoming residence, and Vape World. The district
court denied that motion, except that it suppressed the seizure of any automobiles.
During the trial, a witness for the government, on direct examination, referred
to Dr. Kahn being in jail. Dr. Kahn objected and moved for a mistrial. The district
court denied the motion from the bench, and instead offered a curative instruction.
The district court acknowledged, however, that it was “not sure” that its instruction
would cure the prejudice caused by the witness’s testimony. Id., Vol. VI at 3858.
Defendants also objected to the district court’s jury instructions regarding
liability under § 841(a)(1), their respective “good faith” defenses, and intent. The
6

A6

Appellate Case: 19-8054

Document: 010110485078

Date Filed: 02/25/2021

Page: 7

district court denied those objections. The jury returned a verdict of guilty on all
counts, except that it acquitted Nabeel of causing the death of one of Dr. Kahn’s
patients. Dr. Kahn filed a Rule 33 motion reasserting his mistrial motion. In a
written order, the district court ruled that a mistrial was unwarranted in light of the
overwhelming evidence presented of Dr. Kahn’s guilt. Defendants then filed timely
notices of appeal.
II
A. The Search of the Arizona Residence and the Resulting Seizures Did
Not Violate the Fourth Amendment
Both Defendants challenge the search of Dr. Kahn’s Arizona residence, and
the resulting seizures of U.S. currency and firearms not identified in the warrant. The
government responds that the issue is waived through inadequate briefing and is
without merit because the search was supported by probable cause, and the seizures
were permitted under the plain view doctrine.
“When reviewing a motion to suppress, we view the evidence in the light most
favorable to the government, accept the district court’s findings of fact unless they
are clearly erroneous, and review de novo the ultimate question of reasonableness
under the Fourth Amendment.” United States v. Petit, 785 F.3d 1374, 1378–79 (10th
Cir. 2015). “Once a magistrate judge determines probable cause exists, the role of a
reviewing court is merely to ensure the [g]overnment’s affidavit provided a
‘substantial basis’ for reaching that conclusion.” United States v. Biglow, 562 F.3d
1272, 1281 (10th Cir. 2009); see also United States v. Riccardi, 405 F.3d 852, 860
7

A7

Appellate Case: 19-8054

Document: 010110485078

Date Filed: 02/25/2021

Page: 8

(10th Cir. 2005) (review of magistrate judge’s probable cause finding is “very
deferential”).
The warrant in question was issued by a magistrate judge for the District of
Arizona. See App., Vol. III at 132. The warrant permitted seizure of financial and
business records, electronic media, appointment books and schedules, controlled
substances, and patient records for fifty-one specific patients. Id. at 134–36. The
warrant did not include U.S. currency or firearms as items to be seized.
Drug Enforcement Agency (“DEA”) Special Agent Brett Patterson authored an
affidavit in support of the warrant. Special Agent Patterson had extensive experience
and knowledge “of the methods used by drug traffickers to import illegal drugs from
Mexico, store them in cities in border states, distribute them in those areas to local
buyers or buyers from out-of-state, transport them to other parts of the United States
for distribution, and collect and launder drug proceeds.” Id. at 144. In his
experience investigating “high-level narcotics trafficking organizations based in
Phoenix, Arizona,” Special Agent Patterson learned “that narcotic traffickers
frequently maintain at their residence and businesses, books and records listing
narcotic suppliers and purchasers, and similar books and records documenting those
narcotic transactions.” Id. But Special Agent Patterson did not attest to any specific
expertise in investigating physicians accused of issuing unlawful prescriptions.
Special Agent Patterson identified “numerous red flags” in Dr. Kahn’s
prescribing behavior, including “extremely high dosage amounts, patients traveling
from out of state, multiple patients from the same household receiving controlled
8

A8

Appellate Case: 19-8054

Document: 010110485078

Date Filed: 02/25/2021

Page: 9

substance prescriptions, lack of individualized therapy, early refills, dangerous drug
combinations and overlapping controlled substance prescriptions with Dr. Kahn’s
Arizona and Wyoming DEA registrations being utilized.” Id. at 153–54. All fiftyone patients whose records were sought fell within that “pattern of suspicious
prescriptions.” Id. at 164. Only eight of those patients, however, were discussed
with any specificity in the affidavit.
Special Agent Patterson also attested that investigators intercepted a phone call
between Dr. Kahn and Lyn Kahn, in which Dr. Kahn said he would “take the charts
home or whatever.” Id. at 150. At the time of the call, Dr. Kahn was cleaning his
medical office in Wyoming, and was returning to his Wyoming residence. Special
Agent Patterson did not attest to when that call took place, although the district court
concluded that it “could not have been older than about six months” based on the
timing of the investigation. Id., Vol. V at 1171.
In another intercepted call, Lyn Kahn informed a patient that Dr. Kahn
travelled to Arizona once a month to practice medicine. Dr. Kahn kept a medical
office in Arizona, with a sign reading “Shakeel Kahn, MD. By appointment only.”
Id., Vol. III at 160. The Arizona medical office had a furnished waiting room and
was current on its rent. Lyn Kahn also resided at the Arizona residence in October
2016, and she forwarded phone calls from the Wyoming medical office to her cellular
telephone to “schedule appointments and arrange payments and money transfers.”
Id. at 159.

9

A9

Appellate Case: 19-8054

Document: 010110485078

Date Filed: 02/25/2021

Page: 10

In one such call, occurring when Lyn Kahn resided at the Arizona residence, a
patient asked Lyn Kahn if he should send money through Western Union for a
prescription pickup. The patient also told Lyn Kahn that he would be bringing a new
“client.” Id. at 161. Lyn Kahn informed the patient that he would have to pay extra
for a pickup on a Saturday, to which the patient replied that he would do whatever
Dr. Kahn and Lyn Kahn wanted regarding the money. Special Agent Patterson
attested that this call “demonstrates the exploitation of [Dr. Kahn’s] position for
profit and the cash for prescription scheme being conducted by Dr. Kahn.” Id.
Special Agent Patterson opined that, due to the cash nature of Dr. Kahn’s
practice, Dr. Kahn “may utilize a safe to secure bulk cash at [the Arizona residence].”
Id. at 150. Special Agent Patterson based his opinion on an intercepted call in which
Dr. Kahn told Lyn Kahn that he needed to get a safe out of a store [Vape World] in
Wyoming and bring it home. Special Agent Patterson also attested that Dr. Kahn had
likely received over $3,000,000 for issuing prescriptions. Id. at 162.
When executing the warrant at the Arizona residence, officers discovered and
seized approximately $1,000,000 in U.S. currency, over forty firearms, and at least
one automobile.4 Two safes were searched. Officers discovered the currency in

4

The record is not entirely clear as to how many firearms and automobiles
were seized. The district court only indicated that “more than 40 firearms, and at
least one automobile” were seized. App., Vol. V at 1162. In his brief, Dr. Kahn
asserts that “approximately 41 firearms, and 5 automobiles” were seized. Dr. Kahn’s
Br. at 7. Nabeel asserts that “five automobiles, and more than 40 firearms” were
seized. Nabeel’s Br. at 43. And the government responds that officers seized “49
firearms.” United States’ Dr. Kahn Br. at 27. The Search Warrant Receipt appears to
10

A10

Appellate Case: 19-8054

Document: 010110485078

Date Filed: 02/25/2021

Page: 11

envelopes in one or both safes which Nabeel either opened voluntarily or provided
access to the safe’s combination. The firearms were scattered throughout the Arizona
residence. Officers also discovered several different forms of identification; some
had Nabeel’s name, but someone else’s picture, or Nabeel’s picture but another
name. During the execution of the warrant, Special Agent Patterson spoke with
Nabeel. Nabeel informed Special Agent Patterson that the firearms belonged to him,
that they were registered to Dr. Kahn, and that Nabeel was “not allowed” to have
them. Id., Vol. VI at 353. Nabeel also informed Special Agent Patterson that he was
in the United States illegally and had previously used Dr. Kahn’s identity, so that Dr.
Kahn’s insurance would pay for Nabeel’s surgery.
1. We Decline to Find a Waiver Based on Inadequate Briefing
The government asserts that Defendants have waived their suppression
arguments through inadequate briefing because Defendants failed to cite to the trial
transcript. See Fed. R. App. P. 28(e) (“A party referring to evidence whose
admissibility is in controversy must cite the pages of the appendix or of the transcript
at which the evidence was identified, offered, and received or rejected.”).
Defendants’ opening briefs do, however, include citations to the relevant pretrial
motions, exhibits, and the district court’s suppression rulings. Further, Defendants
provided citations to the trial transcript on reply. Thus, any alleged deficiencies do
not frustrate our review of Defendants’ suppression arguments. See United States v.

list 49 firearms and 5 automobiles. See App., Vol. II at 1007–09. In any event, the
precise number of firearms and automobiles does not affect our analysis.
11

A11

Appellate Case: 19-8054

Document: 010110485078

Date Filed: 02/25/2021

Page: 12

Hall, 473 F.3d 1295, 1303 (10th Cir. 2007) (treating an argument as waived where
we could not “even attempt to assess the merits of [appellant’s] argument”).
Accordingly, we exercise our discretion in overlooking any waiver based on
inadequate briefing and proceed to the merits. See United States v. Mullikin, 758
F.3d 1209, 1211 n.3 (10th Cir. 2014) (declining to determine whether argument was
waived, where any error was harmless).
2. Special Agent Patterson’s Affidavit Established an Adequate Nexus
between the Arizona Residence and Evidence of a Crime
Both Defendants challenge whether the government established a nexus
between the Arizona residence and evidence of a crime. Defendants assert that
Special Agent Patterson lacked expertise in investigating medical practitioners
suspected of unlawfully prescribing medication, and that the government had
insufficient reasons to suspect Dr. Kahn stored medical or financial records at the
Arizona residence.
“Probable cause undoubtedly requires a nexus between suspected criminal
activity and the place to be searched.” United States v. Danhauer, 229 F.3d 1002,
1006 (10th Cir. 2000). “Whether a sufficient nexus has been established between a
defendant’s suspected criminal activity and his residence . . . necessarily depends
upon the facts of each case.” Biglow, 562 F.3d at 1279. “Certain non-exhaustive
factors relevant to our nexus analysis include (1) the type of crime at issue, (2) the
extent of a suspect’s opportunity for concealment, (3) the nature of the evidence
sought, and (4) all reasonable inferences as to where a criminal would likely keep
12

A12

Appellate Case: 19-8054

Document: 010110485078

Date Filed: 02/25/2021

Page: 13

such evidence.” Id. Although neither “hard evidence” nor “personal knowledge of
illegal activity” are required to demonstrate an adequate nexus, an affidavit must
demonstrate “circumstances which would warrant a person of reasonable caution in
the belief that the articles sought are at a particular place.” Id. (internal quotations
omitted).
Here, the magistrate judge’s probable cause finding to search the Arizona
residence is supported by a substantial basis. Specifically, the Arizona residence is
tied to Defendants’ suspected drug trafficking in several ways: Dr. Kahn transported
medical records from his Wyoming office to his Wyoming residence, he regularly
travelled to Arizona to practice medicine, and he maintained an office and residence
in Arizona. The involvement of Dr. Kahn’s wife, Lyn, further ties the Arizona
residence to the Defendants’ illegal drug activity. Lyn Kahn resided at the Arizona
residence for a period, received calls forwarded from the Wyoming office, and
scheduled appointments and arranged payments and money transfers. The nexus is
further supported through Special Agent Patterson’s opinion that drug traffickers
keep drug-related records in their homes. Accordingly, the affidavit includes facts
describing the type of crime at issue (drug trafficking), the extent of Dr. Kahn’s and
Lyn Kahn’s opportunities to move records and conceal them (their travels between
Arizona and Wyoming, and Dr. Kahn’s travel between his offices and residences),
the nature of the evidence sought (patient files and financial records), and the
reasonable inferences regarding where a criminal would likely keep such evidence (in
a residence). See id.
13

A13

Appellate Case: 19-8054

Document: 010110485078

Date Filed: 02/25/2021

Page: 14

Defendants raise several objections to the magistrate judge’s nexus
determination, none of which are availing. Although Defendants show that the
magistrate judge could have reached a different conclusion, they do not show that the
magistrate judge’s probable cause determination lacked a “substantial basis.” Id. at
1281. For example, Defendants assert that the magistrate judge could have
distinguished Special Agent Patterson’s expertise with a “standard drug trafficking
case” from “a case involving a doctor accused of prescribing outside the scope of
professional practice.” Dr. Kahn’s Br. at 21; see also Nabeel’s Br. at 42. Yet, even
assuming Special Agent Patterson’s opinion is entitled to no weight, “[a]dditional
evidence connecting a defendant’s suspected activity to his residence may also take
the form of inferences a magistrate judge draws from the [g]overnment’s evidence.”
Biglow, 562 F.3d at 1280 (internal quotation marks omitted). Here, such an inference
is supported by the intercepted call in which Dr. Kahn indicated he was going to
bring patient files from his Wyoming office to his Wyoming residence.
Defendants also assert that the intercepted call only showed that Dr. Kahn
brought records to his Wyoming residence, and only “on one occasion” while
cleaning his office. Dr. Kahn’s Br. at 19; Nabeel’s Br. at 43. Defendants contrast the
Wyoming residence with the Arizona residence, which they describe as a “secondary
residence at which there is no reason to believe [Dr. Kahn] spen[t] any significant
time.” Dr. Kahn’s Br. at 21; see also Nabeel’s Br. at 42 (“Dr. Kahn had moved to
Wyoming more than a year before the search [of the Arizona residence].”). Yet, Dr.
Kahn regularly traveled from Wyoming to Arizona to see patients, where he
14

A14

Appellate Case: 19-8054

Document: 010110485078

Date Filed: 02/25/2021

Page: 15

maintained a medical office. Thus, given the transient nature of Dr. Kahn’s practice
between his offices and homes in Wyoming and Arizona, the magistrate judge could
have concluded that Dr. Kahn brought records to his Arizona residence as he had in
Wyoming. Further, Lyn Kahn resided at the Arizona residence in October 2016 and
used her cellular phone to schedule appointments and arrange payments. Thus, the
magistrate judge could also have concluded that Lyn Kahn, a co-conspirator, also
kept records at the Arizona residence. Even considering Defendants’
counterarguments collectively, the magistrate judge’s probable cause finding is
supported by a substantial basis and may not be disturbed under our “very
deferential” review. Riccardi, 405 F.3d at 860.
3. Special Agent Patterson’s Affidavit Established Probable Cause as to
All Patients Included in the Warrant
Dr. Kahn also asserts that, even if a nexus were established to support a
warrant to search the Arizona residence, Special Agent Patterson’s affidavit only
established probable cause as to the eight patients explicitly described, but did not
provide probable cause to search for and seize the records of all fifty-one patients.
See Dr. Kahn’s Br. at 25. Special Agent Patterson averred that all fifty-one patients
showed “red flags,” including “extremely high dosage amounts, patients traveling
from out of state, multiple patients from the same household receiving controlled
substance prescriptions, lack of individualized therapy, early refills, dangerous drug
combinations and overlapping controlled substance prescriptions with Dr. Kahn’s
Arizona and Wyoming DEA registrations being utilized.” App., Vol. III at 153–54.
15

A15

Appellate Case: 19-8054

Document: 010110485078

Date Filed: 02/25/2021

Page: 16

Those red flags were identified by reviewing computerized “prescription drug
monitoring program” information in both Arizona and Wyoming. Id. at 153.
Accordingly, the magistrate judge could have concluded that the eight patients
explicitly described in the affidavit were illustrative of the remaining “red flagged”
patients, and thereby provided a “substantial basis” for the magistrate judge’s
probable cause determination as regards the more generally described patients.
Biglow, 562 F.3d at 1281.
4. The Seizure of U.S. Currency and Firearms Was Permitted Under the
Plain View Doctrine
The government concedes that the Arizona warrant did not authorize seizure of
U.S. currency, firearms, or automobiles. The government asserts that the U.S.
currency and firearms were properly seized under the plain view doctrine.
Defendants counter that the plain view doctrine does not apply here because further
investigation was required to establish probable cause. Defendants also argue that
the plain view doctrine cannot apply because the discovery of those items was not
“inadvertent.” See Dr. Kahn’s Br. at 31.
“The plain view doctrine allows a law enforcement officer to seize evidence of
a crime, without violating the Fourth Amendment, if (1) the officer was lawfully in a
position from which the object seized was in plain view, (2) the object’s
incriminating character was immediately apparent (i.e., there was probable cause to
believe it was contraband or evidence of a crime), and (3) the officer had a lawful

16

A16

Appellate Case: 19-8054

Document: 010110485078

Date Filed: 02/25/2021

Page: 17

right of access to the object.” United States v. Angelos, 433 F.3d 738, 747 (10th Cir.
2006) (internal quotation marks omitted).
Contrary to Defendants’ assertion, there is no inadvertent discovery
requirement under the plain view doctrine. Defendants rely on language from Justice
Stewart’s plurality opinion in Coolidge v. New Hampshire, 403 U.S. 443 (1971).
There, Justice Stewart wrote: “If the initial intrusion is bottomed upon a warrant that
fails to mention a particular object, though the police know its location and intend to
seize it, then there is a violation of the express constitutional requirement of
‘Warrants . . . particularly describing . . . [the] things to be seized.’” Id. at 471. The
Supreme Court has since expressly rejected Justice Stewart’s reasoning in Coolidge
and the “inadvertent discovery requirement.” Horton v. California, 496 U.S. 128,
138–39 (1990); see also id. at 141 (“If the interest in privacy has been invaded, the
violation must have occurred before the object came into plain view and there is no
need for an inadvertence limitation on seizures to condemn it.”). Thus, under current
Supreme Court precedent an officer may, if on the premises pursuant to a valid
warrant or under an exception of the warrant requirement, seize items which
immediately appear to be evidence or contraband of a crime. See United States v. Le,
173 F.3d 1258, 1269 (10th Cir. 1999) (“We think it clear that the inadvertence
requirement is no longer a necessary condition for a legal ‘plain view’ seizure.”).
Because Defendants do not challenge whether the objects were in “plain view”
or whether officers had a right of access to the objects (presuming the warrant was
valid), they only question whether “the object’s incriminating character was
17

A17

Appellate Case: 19-8054

Document: 010110485078

Date Filed: 02/25/2021

Page: 18

immediately apparent.” Angelos, 433 F.3d at 747. The parties dispute whether the
incriminating character must be “immediately apparent” at the time of the search, or
at the time of the seizure. Defendants assert that the plain view doctrine does not
apply to the U.S. currency or firearms because the incriminating nature of those items
was not “immediately apparent” upon their discovery. Rather, the officers only
developed probable cause after questioning Nabeel for more than an hour. The
government responds that the items were properly seized because their incriminating
nature was immediately apparent at the time of their seizure.
The time at which probable cause must be “immediately apparent” depends on
the nature of the privacy invasion. All parties rely on Arizona v. Hicks, 480 U.S. 321
(1987). The officers in Hicks entered an apartment without a warrant under the
exigent circumstance of investigating a shooting. The Supreme Court held that the
plain view doctrine did not permit police to record serial numbers on stereo
equipment if doing so required police to move the equipment because moving the
objects “produce[d] a new invasion of respondent’s privacy unjustified by [other
circumstances] that validated the entry.” Id. at 325. Yet in Hicks, unlike here, the
privacy invasion was a warrantless search of the defendant’s property, i.e., moving
the stereo. Thus, Hicks stands for the proposition that to search an object under the
plain view doctrine, its criminal nature must be immediately apparent at its initial
discovery.
To seize an object, however, the criminal nature must be apparent at its
seizure. Accordingly, “[a]long with numerous other circuits, we have upheld the
18

A18

Appellate Case: 19-8054

Document: 010110485078

Date Filed: 02/25/2021

Page: 19

plain view seizure of documents even when the police only learned of the documents’
incriminating nature by perusing them during a lawful search for other objects.”
United States v. Soussi, 29 F.3d 565, 570 (10th Cir. 1994) (emphases added); see also
United States v. Johnston, 784 F.2d 416, 420 (1st Cir. 1986) (holding probable cause
must be established during the search, but not the moment of discovery, because
“[police] are not limited by the chance of which room they happen to search first”).
Here, the officers had probable cause to seize the U.S. currency upon its
discovery. Special Agent Patterson, who supervised the search of the Arizona
residence, had other evidence tying the U.S. currency to Dr. Kahn’s drug enterprise.
For example, in his affidavit in support of the warrant, Special Agent Patterson
described evidence showing that Dr. Kahn sold prescription medication for cash, that
Dr. Kahn had collected more than $3,000,000 from such sales, that Dr. Kahn (like
other drug traffickers) likely kept bulk cash in his residence, possibly in a safe, and
that on one occasion Dr. Kahn discussed bringing a safe home, albeit to his Wyoming
residence. Thus, upon learning of bulk cash stored in a safe (or safes), Special Agent
Patterson had probable cause to believe that cash was evidence of Dr. Kahn’s illegal
activity.
Defendants assert that the officers lacked probable cause to seize the cash
because one of the very purposes of the search was to determine whether Dr. Kahn
was issuing unlawful prescriptions. Defendants’ argument conflates the burden of
proof to sustain a conviction with probable cause to seize evidence; although the
government may have required further evidence to prove a drug conspiracy, the
19

A19

Appellate Case: 19-8054

Document: 010110485078

Date Filed: 02/25/2021

Page: 20

officers had probable cause to seize bulk cash. Further, even assuming officers
lacked probable cause to believe bulk cash would be discovered at Dr. Kahn’s
Arizona residence, upon its discovery, the officers had probable cause to believe the
cash was evidence of Dr. Kahn’s illegal activity. Horton, 496 U.S. at 139 (“[I]f [an
officer] has a valid warrant to search for one item and merely a suspicion concerning
the second, whether or not it amounts to probable cause, we fail to see why that
suspicion should immunize the second item from seizure if it is found during a lawful
search for the first.”).
The officers also had probable cause to seize the firearms as contraband after
questioning Nabeel. Nabeel informed Special Agent Patterson that the firearms were
his, were registered to another, and that he was “not allowed” to own the firearms.
App., Vol. VI at 353. Officers also discovered conflicting forms of identification.
Defendants do not challenge the voluntariness of Nabeel’s incriminating statements
or the discovery of the conflicting identification cards during that search. Thus, the
officers had probable cause to believe that Nabeel was an alien in unlawful
possession of a firearm. See 18 U.S.C. § 922(g)(5).
5. The Officers Did Not Grossly Exceed the Scope of the Warrant
Defendants next assert that, by seizing numerous items not mentioned in the
warrant, the officers grossly exceeded the scope of the warrant, thereby requiring
blanket suppression.
“When law enforcement officers grossly exceed the scope of a search warrant
in seizing property, the particularity requirement [under the Fourth Amendment] is
20

A20

Appellate Case: 19-8054

Document: 010110485078

Date Filed: 02/25/2021

Page: 21

undermined and a valid warrant is transformed into a general warrant thereby
requiring suppression of all evidence seized under that warrant.” United States v.
Medlin, 842 F.2d 1194, 1199 (10th Cir. 1988) (Medlin II). In Medlin II, the warrant
authorized the search and seizure of “firearms—illegally possessed by Arvle Edgar
Medlin, and/or stolen firearms, records of the purchase or sale of such firearms by
Medlin, which are fruits, evidence and instrumentalities of [unlawful possession of a
firearm by a convicted felon].” Id. at 1195. In addition to seizing 130 firearms from
Medlin’s residence, officers also seized 667 items of suspected stolen property. This
court found that the 667 items were not seized pursuant to a warrant and were not
seized under any exception to the warrant requirement. We then affirmed the district
court’s factual finding that “the seizure of the 667 items was ‘not mitigated by
practical considerations’ and that [the officer] ‘employed the execution of the federal
search warrant as a fishing expedition.’” Id. at 1199.
Similarly, in United States v. Foster, 100 F.3d 846, 851 (10th Cir. 1996), we
concluded that the seizure of “anything of value” grossly exceeded the scope of the
warrant, and thus merited blanket suppression. In addition to seizing the drugs and
guns listed in the warrant, officers also seized, without explanation, a “BB gun, drill,
TVs, lawnmower, coveralls, socket set, clock radio, coins, knives, [and] jewelry.” Id.
at 850. Thus, the search presented “one of those exceedingly rare cases” in which
blanket suppression was appropriate. Id. at 852.
Here, blanket suppression is unwarranted. The facts of this case do not begin
to resemble those of Medlin II or Foster. Here, only the automobiles were seized
21

A21

Appellate Case: 19-8054

Document: 010110485078

Date Filed: 02/25/2021

Page: 22

without an exception to the warrant requirement. Moreover, even if an exception to
the warrant requirement did not apply to the U.S. currency or firearms, the officers’
departures from the warrant were not as gross as those in Medlin II or Foster.
Contrary to Dr. Kahn’s assertion, the officers did not “seize[] ‘anything of value’
they came across.” Dr. Kahn’s Br. at 32. Unlike Foster, the officers did not seize
items that were unrelated to the warrant’s purpose and focus like tools, clothes, or
household appliances. In short, the record does not indicate that officers turned the
warrant into a “general warrant.”5
B. The Search of the Wyoming Residence Did Not Violate the Fourth
Amendment
Dr. Kahn also asserts that the search of his Wyoming residence lacked
probable cause. According to Dr. Kahn, DEA Investigator Robert Churchwell’s
affidavit in support of the warrant for the Wyoming search differed from Special
Agent Patterson’s affidavit in support of the warrant for the Arizona search in two
important ways. First, Investigator Churchwell’s affidavit “did not include any
opinion as to whether drug dealers tend to keep records or drug paraphernalia at
home.” Dr. Kahn’s Br. at 22. Second, Investigator Churchwell’s affidavit did not
inform the magistrate judge when Dr. Kahn stated he planned to bring patient files
from his Wyoming office to his Wyoming residence.

5

Because we sustain the search of the Arizona residence on other grounds, we
decline to address the government’s good faith and severability arguments.
22

A22

Appellate Case: 19-8054

Document: 010110485078

Date Filed: 02/25/2021

Page: 23

Neither of these distinctions affects our analysis. As explained above,
“[a]dditional evidence connecting a defendant’s suspected activity to his residence
may also take the form of inferences a magistrate judge reasonably draws from the
[g]overnment’s evidence.” Biglow, 562 F.3d at 1280 (internal quotation marks
omitted). Thus, the affidavit’s failure to include an opinion regarding where drug
dealers tend to keep records is not necessarily fatal. Just as the facts provided in
Special Agent Patterson’s affidavit established a nexus to the Arizona residence, the
facts provided in Investigator Churchwell’s affidavit similarly established a nexus to
the Wyoming residence.
Further, the intercepted call in which Dr. Kahn indicated he would bring
patient files to his Wyoming residence was not too stale. “[W]hether the information
is too stale to establish probable cause depends on the nature of the criminal activity,
the length of the activity, and the nature of the property to be seized.” United States
v. Snow, 919 F.2d 1458, 1460 (10th Cir. 1990) (internal quotations omitted). In
Snow, we held that an affidavit containing “undated hearsay” was not stale, where the
investigation occurred over a five week period, the defendant was “running an
ongoing, continuous operation to defraud the government,” and the items sought
“were of the type that would be kept for some time given the nature of [the]
defendant’s activities.” Id. Here, as in Snow, the government was investigating
ongoing and continuous criminal activity, making the passage of time “less critical.”
Id. Also, Dr. Kahn’s patient files would likely be kept for some time, as opposed to
being regularly recycled or destroyed. Thus, considering the nature of Dr. Kahn’s
23

A23

Appellate Case: 19-8054

Document: 010110485078

Date Filed: 02/25/2021

Page: 24

criminal activity and the nature of the property to be seized, the intercepted call was
not too stale. See also Riccardi, 405 F.3d at 861 (holding that, in a child
pornography prosecution, a five-year old copy shop receipt was not too stale because
it showed the defendant had the “desire and ability” to convert sexually explicit
photographs of minors into digital format).
C. The Search of Vape World Did Not Violate the Fourth Amendment
Dr. Kahn also asserts that Investigator Churchwell’s affidavit failed to
establish a nexus to Vape World because there was no evidence of “ongoing and
continuous” criminal activity at that business location. Dr. Kahn’s Br. at 24. A
“source of information” informed investigators that, on at least one occasion, Dr.
Kahn instructed a patient to pick up his prescription outside of Vape World. App.,
Vol. III at 191. Financial records also showed that Dr. Kahn and Lyn Kahn owned
Vape World, that Vape World generated thousands of dollars in cash deposits and
credit card transactions, and that a personal check for $300 from one of Dr. Kahn’s
Arizona patients was deposited in an account associated with Vape World.
Investigator Churchwell opined that, based on his training and experience, “drug
traffickers sometimes use legitimate businesses to conceal unlawfully obtained drug
proceeds either through financial institutions or bulk cash storage.” Id. at 193.
These facts provided a “substantial basis” for the magistrate judge’s probable cause
determination. Biglow, 562 F.3d at 1281.

24

A24

Appellate Case: 19-8054

Document: 010110485078

Date Filed: 02/25/2021

Page: 25

D. A Practitioner May Be Convicted for Prescribing Controlled
Substances Either Outside the Scope of Professional Practice or Not for
a Legitimate Medical Purpose
Defendants ask us to revisit our prior holding that a licensed physician may be
convicted under 21 U.S.C. § 841 for either prescribing “outside the scope of
professional practice” or “for no legitimate medical purpose.” See United States v.
Nelson, 383 F.3d 1227 (10th Cir. 2004). Because one panel may not overturn a
decision by a prior panel, we must reject Defendants’ challenge. United States v.
Caiba-Antele, 705 F.3d 1162, 1165 (10th Cir. 2012) (“[W]e are bound by the
precedent of prior panels absent en banc reconsideration or a superceding contrary
decision by the Supreme Court.” (quoting In re Smith, 10 F.3d 723, 724 (10th Cir.
1993))).
In any event, our prior holding in Nelson is sound. Under § 841(a)(1), drug
distribution is only unlawful “except as authorized by this subchapter.” As we found
in Nelson:
The exact extent of the authorization is described in 21 C.F.R.
§ 1306.04(a): “A prescription for a controlled substance to be
effective must be issued for a legitimate medical purpose by an
individual practitioner acting in the usual course of his
professional practice.” In other words, a practitioner is
authorized to dispense controlled substances only if he acts
with a legitimate medical purpose and in the usual course of
professional practice. Conversely, a practitioner would be
unauthorized to dispense a controlled substance if he acts
without a legitimate medical purpose or outside the usual
course of professional practice.
Nelson, 383 F.3d at 1233 (emphasis in original).

25

A25

Appellate Case: 19-8054

Document: 010110485078

Date Filed: 02/25/2021

Page: 26

Other circuits have reached the same conclusion. See, e.g., United States v.
Armstrong, 550 F.3d 382, 399–400 (5th Cir. 2008) (collecting cases), overruled on
other grounds by United States v. Guillermo Balleza, 613 F.3d 432, 433 n.1 (5th Cir.
2010).
E. The District Court Properly Instructed the Jury on Good Faith
Both Defendants challenge the district court’s jury instructions on the good
faith defense, but on different grounds. Nabeel asserts that the district court erred by
expressly limiting its good faith instruction to Dr. Kahn, permitting the jury to
convict Nabeel on less evidence than was required to convict Dr. Kahn. Dr. Kahn
asserts that the district court erred by instructing the jury that a defendant’s “good
faith” must be reasonable, permitting the jury to convict Dr. Kahn by finding a lesser
mens rea than § 841 requires.
“We review a district court’s decision on whether to give a particular jury
instruction for abuse of discretion and view the instructions as a whole de novo to
determine whether they accurately informed the jury of the governing law.” United
States v. Sorensen, 801 F.3d 1217, 1228–29 (10th Cir. 2015) (alteration and internal
quotations marks omitted).
Here, the district court instructed the jury:
The good faith of Defendant Shakeel A. Kahn is a complete
defense to the charges in Count One (conspiracy to commit a
federal drug crime) as well as the charges in Counts Four, Six,
Seven, Eleven, Fourteen, Sixteen, Nineteen, and Twenty
(knowingly and unlawfully dispensing and/or distributing
Oxycodone outside the usual course of professional practice
and without a legitimate medical purpose), because good faith
26

A26

Appellate Case: 19-8054

Document: 010110485078

Date Filed: 02/25/2021

Page: 27

on the part of Defendant Shakeel Kahn would be inconsistent
with knowingly and intentionally distributing and/or
dispensing controlled substances outside the usual course of
professional practice and without a legitimate medical purpose,
which is an essential part of the charges. “Good faith”
connotes an attempt to act in accordance with what a
reasonable physician should believe to be proper medical
practice.
The good faith defense requires the jury to determine whether
Defendant Shakeel Kahn acted in an honest effort to prescribe
for patients’ medical conditions in accordance with generally
recognized and accepted standards of practice.
...
The burden of proving good faith does not rest with a defendant
because a defendant does not have any obligation to prove
anything in this case. It is the [g]overnment’s burden to prove
to you, beyond a reasonable doubt, that a defendant knowingly
or intentionally acted unlawfully.
In determining whether or not the [g]overnment has proven
that a Defendant intentionally or knowingly violated the law,
you should consider all of the evidence in the case bearing on
the Defendant’s state of mind.
Dr. Kahn’s App., Vol. I at 239–40.
1. Nabeel’s Challenge to the District Court’s Good Faith Instruction Is
Forfeited
Nabeel asserts that the district court erred “in instructing the jury that good
faith was a defense for [Dr. Kahn] while refusing to instruct the jury that good faith
was a defense for Nabeel Khan[.]” Nabeel’s Br. at 2. This argument was not,
however, the same as the argument Nabeel raised before the district court, and thus
we decline to consider it.

27

A27

Appellate Case: 19-8054

Document: 010110485078

Date Filed: 02/25/2021

Page: 28

During trial, Nabeel submitted a written objection to the district court’s
proposed good faith instruction. In his objection, Nabeel asserted that he “is not a
doctor and cannot be held to the same standard as Dr. Kahn when assessing the
charges and his good faith belief that what he was doing was not a crime.” App.,
Vol. II at 1635. Nabeel attached a proposed good faith instruction, which would have
instructed the jury that “good faith of a defendant, whether or not objectively
reasonable, is a complete defense to the crimes charged, because good faith on the
part of a defendant is inconsistent with specific intent, which is an essential part of
the charges.” Id. at 1637.
At the jury instruction conference, the district court furnished a new good faith
instruction, acknowledging that it had “pulled a surprise upon counsel.” Id., Vol. VI
at 4549. Nabeel again objected, informing the district court that “a good faith
instruction is important as [Nabeel] is not being held to the same standard as a
doctor, and that he should, as [his counsel] indicated in [a prior written objection], be
held to a good faith belief that what he was doing was not a crime.” Id.
A party objecting to jury instructions must “inform the court of the specific
objection and the grounds for the objection . . . .” Fed. R. Crim. P. 30(d). Failure to
do so “precludes appellate review, except as permitted under Rule 52(b) [i.e., plain
error].” Id. The “heart” of Rule 30(d) requires that the objection “be made with
specificity and distinctness.” United States v. Allen, 129 F.3d 1159, 1162 (10th Cir.
1997) (quoting United States v. Agnew, 931 F.2d 1397, 1401 n.3 (10th Cir. 1991)).

28

A28

Appellate Case: 19-8054

Document: 010110485078

Date Filed: 02/25/2021

Page: 29

Before the district court, Nabeel argued that he “cannot be held to the same
standard” as Dr. Kahn. App., Vol. II at 1635. Yet, Nabeel now asserts that he not
only can, but must be held to at least the same standard as Dr. Kahn. See Nabeel’s
Reply Br. at 10 (arguing “the government must prove that a lay defendant like Nabeel
acted with the same level of culpable knowledge required to convict a prescribing
practitioner like Dr. Kahn”) (emphasis added). Additionally, before the district court,
Nabeel rejected an “objective” good faith instruction, and instead proposed a
“subjective” good faith instruction. Yet, Nabeel now asserts not only that he is
entitled to an “objective” good faith instruction, but that such an instruction was
required because it was provided to Dr. Kahn.
Because Nabeel did not raise this specific objection before the district court,
we may review only for plain error. Fed. R. Crim. P. 30(d); Allen, 129 F.3d at 1162.
Nabeel does not argue plain error, however, so we treat the argument as waived, and
decline to consider it. United States v. Leffler, 942 F.3d 1192, 1198 (10th Cir.
2019).6

6

In other circumstances, we have discretion to consider a waived claim where,
as here, the government does not argue waiver. See United States v. Heckenliable,
446 F.3d 1048, 1049 n.3 (10th Cir. 2006) (concluding the government “waived the
waiver”). Under Rule 30(d), however, the forfeiture or waiver of an objection to jury
instructions “precludes appellate review, except as permitted under Rule 52(b).”
Thus, it is unclear whether the government may “waive the waiver” for an objection
to jury instructions. In any event, we decline to exercise our discretion to review
Nabeel’s waived claim.
29

A29

Appellate Case: 19-8054

Document: 010110485078

Date Filed: 02/25/2021

Page: 30

2. Dr. Kahn’s Objection to the District Court’s Good Faith Instruction Is
Without Merit
Dr. Kahn asserts that the district court erred by instructing the jury that his
“good faith” as a physician must be reasonable, permitting the jury to convict Dr.
Kahn by finding a lesser mens rea than § 841 requires, i.e., that his actions were
merely unreasonable.
Section 841(a)(1) makes it unlawful “[e]xcept as authorized by this subchapter
. . . for any person knowingly or intentionally . . . to manufacture, distribute, or
dispense . . . a controlled substance.” 21 U.S.C. § 841(a)(1). One such authorization
exception is provided under 21 U.S.C. § 829, which permits a registered practitioner
to dispense a controlled substance with a “prescription.” A prescription is lawful,
and thus the exception applies, if the prescription is “issued for a legitimate medical
purpose by an individual practitioner acting in the usual course of his professional
practice.” 21 C.F.R. § 1306.04(a). Accordingly, “[a]n order purporting to be a
prescription issued not in the usual course of professional treatment . . . is not a
prescription within the meaning and intent of [21 U.S.C. § 829] and the person
knowingly filling such a purported prescription, as well as the person issuing it, shall
be subject to the penalties provided for violations of the provisions of law relating to
controlled substances.” Id.; see also United States v. Lovern, 590 F.3d 1095, 1099
(10th Cir. 2009) (Gorsuch, J.).
We hold that § 841(a)(1) and § 1306.04(a) require the government to prove
that a practitioner-defendant either: (1) subjectively knew a prescription was issued
30

A30

Appellate Case: 19-8054

Document: 010110485078

Date Filed: 02/25/2021

Page: 31

not for a legitimate medical purpose; or (2) issued a prescription that was objectively
not in the usual course of professional practice. As we held in Nelson, the
government need only prove criminal liability under one of those two prongs. 383
F.3d at 1233. As § 1306.04(a) explains, under the first prong, a prescription is valid
only if it is issued “for” a legitimate medical purpose. Thus, the only relevant
inquiry under that first prong is why a defendant-practitioner subjectively issued that
prescription, regardless of whether other practitioners would have done the same.
See United States v. Feingold, 454 F.3d 1001, 1008 (9th Cir. 2006) (“[T]he jury must
look into a practitioner’s mind to determine whether he prescribed the pills for what
he thought was a medical purpose.” (alterations omitted)).
Section 1306.04(a) also explains that, under the second prong, a prescription is
valid only if it is issued “in” the scope of professional practice. Thus, the only
relevant inquiry under that second prong is whether a defendant-practitioner
objectively acted within that scope, regardless of whether he believed he was doing
so. For this reason, at least when referencing the usual course of professional
practice, federal case law “has rejected a subjective standard of good faith, in favor
of an objective one.” United States v. Schneider, 704 F.3d 1287, 1303 (10th Cir.
2013) (Holmes, J., concurring) (collecting cases).
Limiting consideration of a defendant-practitioner’s subjective belief to the
“legitimate medical purpose” prong accords with the Fifth and Eleventh Circuits. In
United States v. Norris, the Fifth Circuit held that a jury is properly instructed when
directed to consider “1) [w]hether [the defendant-practitioner] prescribed the drugs
31

A31

Appellate Case: 19-8054

Document: 010110485078

Date Filed: 02/25/2021

Page: 32

for what he subjectively considered a legitimate medical purpose and 2) from an
objective standpoint whether the drugs were dispensed in the usual course of a
professional practice.” 780 F.2d 1207, 1209 (5th Cir. 1986). In United States v.
Tobin, the Eleventh Circuit, adopting the Norris framework, held that “a jury must
determine from an objective standpoint whether a prescription is made in the ‘usual
course of professional practice.’” 676 F.3d 1264, 1283 (11th Cir. 2012) (emphasis in
original).
The Norris framework is also consistent with Congress’s policy goals in
enacting the Controlled Substances Act (“CSA”), of which § 841(a)(1) is a part. If
an objective standard applied to both prongs, a pharmacist who unknowingly filled an
invalid prescription would be liable under the CSA because the prescription was not
filled for a legitimate medical purpose, even if it was filled within the pharmacist’s
scope of professional practice. If a subjective standard applied to both prongs, a
pharmacist who willingly ignored evidence that a prescription was invalid could
escape liability, so long as he (even unreasonably) believed the prescription was
filled for a legitimate medical purpose, and he acted within his own (unreasonable)
scope of professional practice. Thus, the Norris framework punishes practitioners
who act as “street pushers,” without punishing practitioners who are acting within the
scope of their professional practice. See United States v. Moore, 423 U.S. 122, 140
(1975) (“But the scheme of the [CSA], viewed against the background of the
legislative history, reveals an intent to limit a registered physician’s dispensing
authority to the course of his ‘professional practice.’”).
32

A32

Appellate Case: 19-8054

Document: 010110485078

Date Filed: 02/25/2021

Page: 33

Dr. Kahn’s assertion that “good faith is a defense because it negates the mens
rea element of the offense” is without merit. Dr. Kahn’s Br. at 38. Unlike other
criminal offenses, good faith does not go to mens rea for § 841 offenses involving
practitioners. Rather, as numerous other circuits have recognized, good faith defines
the scope of professional practice, and thus the effectiveness of the prescription
exception and the lawfulness of the actus reus. See, e.g., Norris, 780 F.2d at 1209
n.2 (affirming jury instruction stating “[a] controlled substance is prescribed by a
physician in the usual course of a professional practice, and, therefore, lawfully, if
the substance is prescribed by him in good faith, medically treating a patient in
accordance with a standard of medical practice generally recognized and accepted in
the United States”); Tobin, 676 F.3d at 1281 (substantially similar); United States v.
Chube II, 538 F.3d 693, 699 (7th Cir. 2008) (substantially similar); see also United
States v. Volkman, 797 F.3d 377, 387 (6th Cir. 2015) (affirming jury instruction
stating “[i]f a physician dispenses a drug in good faith in the course of medically
treating a patient, then the doctor has dispensed the drug for a legitimate medical
purpose in the usual course of accepted medical practice. That is, he has dispensed
the drug lawfully”); United States v. Vamos, 797 F.2d 1146, 1152 (2d Cir. 1986)
(substantially similar).
Dr. Kahn’s assertion that this instruction permitted the jury to criminally
convict him for mere acts of malpractice or negligence is also without merit. The
district court instructed that Dr. Kahn need only “attempt” to act reasonably, and that
such an attempt must be made in an “honest effort.” Dr. Kahn’s App., Vol. I at 239.
33

A33

Appellate Case: 19-8054

Document: 010110485078

Date Filed: 02/25/2021

Page: 34

Further, the district court correctly instructed that the jury must reach its conclusion
“beyond a reasonable doubt.” Id. at 240. Thus, the jury could not convict Dr. Kahn
for merely failing to apply the appropriate standard of care; it could only convict Dr.
Kahn if it found, beyond a reasonable doubt, that Dr. Kahn failed to even attempt or
make some honest effort to apply the appropriate standard of care. See United States
v. Sabean, 885 F.3d 27, 45 (1st Cir. 2018) (“To safeguard the defendant’s rights, the
court emphasized that ‘a sincere effort to act in accordance with proper medical
practice,’ even if flawed, could not undergird a guilty verdict so long as the
defendant had acted in ‘good faith.’”); United States v. Wexler, 522 F.3d 194, 206
(2d Cir. 2008) (concluding jury did not convict the defendant for “gross mistake or
malpractice . . . because the instruction on good faith as to the honest exercise of
professional judgment and a reasonable belief as to proper medical practice would
shield [the defendant] from criminal liability for any mistake, however gross”). In
short, we find no error in the district court’s instructions.
F. The District Court Properly Instructed the Jury on Intent
Dr. Kahn asserts that the district court’s intent instruction unfairly burdened
his right to testify because it “amount[ed] to directing the jury to disregard the
defendant’s testimony.” Dr. Kahn’s Br. at 41.
The district court instructed the jury:
The intent of a person or the knowledge that a person possesses
at any given time may not ordinarily be proved directly because
there is no way of directly scrutinizing the workings of the
human mind. In determining the issue of what a person knew
or what a person intended at a particular time, you may
34

A34

Appellate Case: 19-8054

Document: 010110485078

Date Filed: 02/25/2021

Page: 35

consider any statements made or acts done by that person and
all other facts and circumstances received in evidence which
may aid in your determination of that person’s knowledge or
intent. . . . It is entirely up to you, however, to decide what facts
to find from the evidence received during the trial.”
Dr. Kahn’s App., Vol. I at 155.
This instruction was proper, and, as Dr. Kahn concedes, is similar to language
this court has upheld in prior cases. See, e.g., United States v. Vreeken, 803 F.2d
1085, 1092 (10th Cir. 1986). Further, contrary to Dr. Kahn’s assertion, the district
court’s instruction did not burden his right to testify. The district court left the jury
free to “consider any statements made” by Dr. Kahn, and to decline to consider any
other facts or circumstances. Thus, the jury instruction did not “arbitrarily single out
his testimony, and denounce it as false.” Reagan v. United States, 157 U.S. 301, 305
(1895). Nor did the district court “highlight[] a testifying defendant’s deep personal
interest in the outcome of a trial.” United States v. Gaines, 457 F.3d 238, 247 (2d
Cir. 2006) (discussing Reagan). Rather, the district court properly left weighing the
competing evidence “entirely” up to the jury. Dr. Kahn’s App., Vol. I at 155.
G. The Evidence Was Sufficient to Convict Nabeel of Conspiracy
Nabeel asserts that the evidence admitted at trial fails to show that he had the
requisite mental state to be guilty of a drug conspiracy. Specifically, Nabeel asserts
that the evidence does not show that he “knew the prescriptions underlying criminal
charges were written without a legitimate medical purpose in defiance of professional
standards.” Nabeel’s Br. at 28. According to Nabeel, because the record lacks

35

A35

Appellate Case: 19-8054

Document: 010110485078

Date Filed: 02/25/2021

Page: 36

evidence that he had any medical education or pharmacy training, he could not have
known that Dr. Kahn prescribed drugs outside the scope of professional practice.
“We review the sufficiency of the evidence to support a conviction de novo,
asking only whether, taking the evidence—both direct and circumstantial, together
with the reasonable inferences to be drawn therefrom—in the light most favorable to
the government, a reasonable jury could find [the defendant] guilty beyond a
reasonable doubt.” United States v. Medina-Copete, 757 F.3d 1092, 1107 (10th Cir.
2014) (alteration in original) (citation and internal quotation marks omitted). “The
jury, as fact finder, has discretion to resolve all conflicting testimony, weigh the
evidence, and draw inferences from the basic facts to the ultimate facts.” United
States v. Harris, 695 F.3d 1125, 1134 (10th Cir. 2012) (internal quotation marks
omitted). “We accept at face value the jury’s credibility determinations and its
balancing of conflicting evidence.” Medina-Copete, 757 F.3d at 1107 (internal
quotation marks omitted).
The evidence here, when considered in the light most favorable to the
government, supports the jury’s conclusion that Nabeel knew that the prescriptions
were not issued for a legitimate medical purpose or were issued outside the scope of
Dr. Kahn’s professional practice. Nabeel interacted directly with patients and saw
patient profiles. Nabeel also discussed patients, prices, and appointment frequencies
with Dr. Kahn. Nabeel also spoke with at least one patient about a TV news report
that described patients who illegally sold their prescription medication.

36

A36

Appellate Case: 19-8054

Document: 010110485078

Date Filed: 02/25/2021

Page: 37

Nabeel’s integral knowledge of the ongoing illegal trafficking in prescription
medications is most clearly demonstrated by his role in drafting, and directing
patients to complete, a “drug addiction statement.” By signing that statement,
patients swore that Dr. Kahn was not a “drug dealer” and that “[a]ny statement[s] to
that effect made by [the patient] . . . are complete falsehoods and actionable as
slander [and that the patient] unequivocally den[ies] any such statement made to that
effect and they should be considered to be lies.” App., Suppl. Vol. I at 134. Patients
further swore that they were not an “addict” and that they “suffer from moderate to
severe chronic pain that is helped by the use of prescription controlled substances.”
Id. Most concerning, the statement also required patients to agree to pay Dr. Kahn,
as well as his “officers and agents,” “$100,000.00 USD for each and every action,
investigation, complaint, or other legal or administrative proceeding whether civil or
criminal however commenced . . . as a direct and/or indirect result of any action
attributable in any manner whatsoever to [the patient].” Id. By drafting this
statement, the jury could have concluded that Nabeel knew that Dr. Kahn was in fact
acting as a “drug dealer,” that the prescriptions were not issued for legitimate
medical purposes, and that Dr. Kahn (and “officers and agents” like Nabeel) were
thus subject to criminal liability. Accordingly, when all evidence presented is
considered together the evidence is sufficient to sustain Nabeel’s conspiracy
conviction. Because we sustain Nabeel’s conspiracy conviction, we also sustain his
conviction for possessing a firearm in the commission of a federal drug-trafficking
crime.
37

A37

Appellate Case: 19-8054

Document: 010110485078

Date Filed: 02/25/2021

Page: 38

Nabeel’s reliance on our prior decision in United States v. Lovern, 590 F.3d
1095 (10th Cir. 2009) (Gorsuch, J.), is misplaced. Unlike Nabeel, the pharmacy
technician in Lovern “did not interact with customers; he did not see patient profiles;
[and] he did not communicate with . . . doctors[.]” Id. at 1105. Further, we
concluded the evidence presented in Lovern suggested that the technician only knew
of some other unlawful activity, such as unlawfully accepting prescriptions over the
internet, or failing to register as a pharmacy technician. Id. at 1106. Thus, we
reversed the jury’s conviction of a pharmacy technician because the evidence was
insufficient to show that the defendant “knew of the particular problem that [gave]
rise to liability under the CSA as opposed to . . . state law or regulation.” Id. at 1109.
In contrast, Nabeel offers no alternative theory for what unlawful activity he may
have suspected, if not the unlawful distribution of controlled substances.
H. The Improper Witness Testimony Did Not Require a Mistrial
Finally, Dr. Kahn asserts that the district court erred in denying his motion for
a mistrial following unfairly prejudicial testimony by a witness.
At trial, a witness for the government testified on direct examination that he
was “monitoring Shakeel Kahn’s jail calls while he was incarcerated.” App., Vol VI
at 3857. Dr. Kahn objected and, at sidebar, moved for a mistrial. The government
acknowledged that the witness’s statement prejudiced Dr. Kahn’s defense, but
asserted that the prejudice could be cured by an instruction. Id. The district court
then denied Dr. Kahn’s motion, explaining:

38

A38

Appellate Case: 19-8054

Document: 010110485078

Date Filed: 02/25/2021

Page: 39

We have spent nearly a month here in this trial. This remark
has been made. A whole lot of money has been spent at this
point both by the government and by [Dr. Kahn]. I am not sure
that my instruction alone can cure any prejudice—a question
in the jurors’ mind about—about this.
Id. at 3858.
The district court then instructed the jury that “[t]he answer of the witness . . .
is stricken with the instruction that the jury must not speculate whether or not
Shakeel Kahn was incarcerated for any period after he was arrested.” Id. at 3859–60.
Although not discussed by either party, Dr. Kahn also filed a written Rule 33
motion for a new trial, which the district court denied in a written order. The district
court held that a new trial was not required because the prosecutor did not act in bad
faith, the district court gave a limiting instruction, and “the remark remains highly
inconsequential in light of all the other evidence and testimony presented against [Dr.
Kahn] throughout the trial.” Id., Vol. II at 1984–85 (citing United States v. Lamy,
521 F.3d 1257, 1266 (10th Cir. 2008)).
We review a decision to grant or deny a mistrial for abuse of discretion.
United States v. McKissick, 204 F.3d 1282, 1299 (10th Cir. 2000). Denial of a new
trial “is an abuse of discretion only if it is arbitrary, capricious, whimsical, or
manifestly unreasonable.” Lamy, 521 F.3d at 1266. “In determining whether a new
trial is required after a witness offers improper information, we consider (1) whether
the prosecutor acted in bad faith, (2) whether the district court limited the effect of
the improper statement through its instructions to the jury, and (3) whether the

39

A39

Appellate Case: 19-8054

Document: 010110485078

Date Filed: 02/25/2021

Page: 40

improper remark was inconsequential in light of the other evidence of the defendant’s
guilt.” Id. (internal quotations omitted).
Assuming the district court’s reference to the cost and time of trial in its oral
ruling was an abuse of discretion, reversal is unwarranted because there is not a
“reasonable possibility” that the objectionable testimony affected Dr. Kahn’s
conviction. United States v. Nunez, 668 F.2d 1116, 1124 (10th Cir. 1981) (citing
United States v. Bishop, 534 F.2d 214, 220 (10th Cir. 1976)). As the district court
found in its written ruling and we confirm in our review of the record, the evidence
of guilt in this case is overwhelming in light of the government’s weeks-long
presentation of patient records, patient testimony, and expert testimony. Dr. Kahn’s
reliance on Decks v. Missouri, 544 U.S. 622, 630 (2005) is misplaced. Any prejudice
to Dr. Kahn arising from the witness’s passing reference to “jail calls” is not
remotely akin to the prejudice suffered by a defendant who is required to appear
before a jury in shackles or prison garb.
III
For the reasons set forth above, we AFFIRM.

40

A40

Case 2:17-cr-00029-ABJ Document 856 Filed 08/19/19 Page 1 of 11

UNITED STATES DISTRICT C9l||T

•

FOR THE DISTRICT OF WYC^^ ^^
UNITED STATES OF AMERICA
Case Number: 17-CR-29-ABJ-1

vs

Defendant's Attomey(s):
Beau Brindley, Michael J. Thompson,

Shakeel A. Kahn

Michael H. Reese

AMENDED'JUDGMENT IN A CRIMINAL CASE

THE DEFENDANT was found guilty on counts 1, 2, 4-14, 16-23 after pleas of not guilty.

ACCORDINGLY,the court has adjudicated that the defendant is guilty of the following
offense(s):
Count
Title and Section

21 U.S.C.§ 841(a)(1)(b)
(1)(C) and (b)(2)

Nature of Offense

Date Offense Concluded
Numbertsl

Conspiracy to Dispense and
Distribute Oxycodone,
Alprazolam, Hydromorphone,
and Carisoprodol, Resulting in

November 30, 2016

Death

Possession of Firearms in

18 U.S.C. § 924(c)(1)
21 U.S.C. § 841(a)(1) and
(b)(1)(C)

Furtherance of a Federal Drug
Trafficking Crime

November 30, 2016

Dispensing of Oxycodone

September 2,2016

Possession with Intent to

21U.S.C. §84i(a)(l)and
Distribute Oxycodone and Aid
(b)(1)(C)

September 2, 2016

21 U.S.C. § 841(a)(1) and
(b)(1)(C)

Dispensing of Oxycodone

September 30,2016

21 U.S.C. § 841(a)(1) and
(b)(1)(C)

Dispensing of Oxycodone

Oetober 1, 2016

and Abet

21 U.S.C. § 843(b)

Unlawful Use of a

Communications Facility

Oetober 1, 2016

Possession with Intent to

21 U.S.C. § 841(a)(1) and
Distribute Oxycodone and Aid
(b)(1)(C)

October 1, 2016

and Abet

Dates offense concluded added

Appendix B
WY 14

A41

Rev. 01/15/2019

Case 2:17-cr-00029-ABJ Document 856 Filed 08/19/19 Page 2 of 11

21 U.S.C § 84Ka)(l) and,
(b)(1)(C)

21 U.S.C. § 841(a)(1) and
(b)(1)(C)
21 U.S.C. § 843(b)
21 U.S.C. § 843(b)

Possession with Intent to

Oxycodone and Aid

Dispensing of Oxycodone and
Unlawful Use of a

Communications Facility
Unlawful Use of a

Communications Facility

(b)(1)(C)

Aid and Abet

21 U.S.C. § 841(a)(1) and
(b)(1)(C)

Dispensing of Oxycodone

21 U.S.C. § 843(b)

10

October 7, 2016

11

October 3, 2016

12

October 7,2016

13

Aid and Abet

21 U.S.C, § 841(a)(1) and Dispensing of Oxycodone and

21 U.S.C. § 843(b)

October 2, 2016

and Abet

Unlawful Use of a

Communications Facility
Unlawful Use of a

Communications Facility

21 U.S.C. § 841(a)(1) and Dispensing of Oxycodone and

November 9,2016

14

October 28, 2016

16

October 31, 2016

17

November 14, 2016

18

^

^

(b)(1)(C)

Aid and Abet

iNovember 11,2Uio

19

21 U.S.C. § 841(a)(1) and
(b)(1)(C)

Dispensing of Oxycodone

June 9,2016

20

21 U.S.C. § 848(a),(b)
and (c)

Continuing Criminal Enterprise

November 30, 2016

21

June 9,2014

22

November 29, 2016

23

Engaging in Monetary
18 U.S.C. § 1957

Transactions Derived from

Specified Unlawful Activity
Engaging in Monetary
18 U.S.C. § 1957

Transactions Derived from

Specified Unlawful Activity
The defendant is sentenced as provided in pages 4 through 11 ofthis Judgment. The sentence is
imposed pursuant to the Sentencing Reform Act of 1984.

17-CR-29-ABJ-1

JUDGMENT IN A CRIMINAL CASE

Shakeel A. Kahn

PAGE 2 OF 11

A42

Case 2:17-cr-00029-ABJ Document 856 Filed 08/19/19 Page 3 of 11

IT IS FURTHER ORDERED that the defendant shall notify the United States Attorney for this
district within 30 days of any change of residence or mailing address until all fines, restitution,
costs, and special assessments imposed by this judgment are fully paid.
Defendant's USM No: 16483-091

August 12, 2019
Date ofImposition of Sentence

AlanB. Johnson

United States District Judge

17-CR-29-ABJ-1

JUDGMENT IN A CRIMINAL CASE

Shakeel A. Kahn

PAGE 3 OF 11

A43

Case 2:17-cr-00029-ABJ Document 856 Filed 08/19/19 Page 4 of 11

IMPRISONMENT

The defendant is hereby committed to the custody of the United States Bureau ofPrisons to be
imprisoned for a term of 240 months as to Counts 1,4, 5, 6, 7, 9, 10, 11, 14, 16, 19, 20, and 21;
48 months as to Counts 8, 12, 13, 17, and 18; 120 months as to Counts 22 and 23, all to be
served concurrently; and 60 months as to Count 2, consecutive to all other counts.

The Court recommends to the Bureau ofPrisons that the defendant be placed at FCI Terminal
Island, FCI Sheridan, or FCI Pensacola.
The defendant is remanded to the custody of the United States Marshal.

RETURN

I have executed this Judgment as follows:

Defendant delivered on

to

at

, with a certified copy of this Judgment.

United States Marshal/Bureau of Prisons

By:

Authorized Agent

17-CR-29-ABJ-1

JUDGMENT IN A CRIMINAL CASE

Shakeel A. Kahn

PAGE 4 OF 11

A44

Case 2:17-cr-00029-ABJ Document 856 Filed 08/19/19 Page 5 of 11

SUPERVISED RELEASE

Upon release from imprisonment, the defendant shall be on supervised release for a term of5
years as to Counts 1, 2,4, 5, 6, 7, 9, 10, 11, 14, 16, 19, 20, and 21; 3 years as to Counts 22 and
23; 1 year as to Counts 8, 12, 13, 17, and 18, all to be served concurrently.
The defendant shall not commit another federal, state or local crime.

The defendant shall not illegally possess a controlled substance.
The defendant shall refrain from any unlawful use of a controlled substance and submit to one
drug test within 15 days of release from imprisonment and at least two periodic drug tests
thereafter(as determined by the court)for use of a controlled substance, but the condition stated
in this paragraph may be ameliorated or suspended by the court for any individual defendant if
the defendant's presentence report or other reliable information indicates a low risk of future
substance abuse by the defendant.
If a fine is imposed and has not been paid upon release to supervised release, the defendant shall
adhere to an installment schedule to pay that fine.
The defendant shall(A)make restitution in accordance with 18 U .S.C. §§ 2248, 2259, 2264,
2327, 3663, 3663A, and 3664; and(B)pay the assessment imposed in accordance with 18
U.S.C. § 3013. If there is a court-established payment schedule for making restitution or paying
the assessment(see 18 U.S .C. § 3572(d)), the defendant shall adhere to the schedule.
The defendant shall submit to the collection of a DNA sample at the direction of the United
States Probation Office if the collection of such a sample is authorized pursuant to section 3 of
the DNA Analysis Backlog Elimination Act of 2000(42 U.S .C. § 14135a).

The defendant shall comply with the standard conditions that have been adopted by this Court as
defmed in the contents of the Standard Conditions page (if included in this judgment). If this
judgment imposes a restitution obligation, it shall be a condition of supervised release that the
defendant pay any such restitution that remains unpaid at the commencement of the term of
supervised release.

17-CR-29-ABJ-1

JUDGMENT IN A CRIMINAL CASE

Shakeel A. Kahn

PAGE 5 OF 11

A45

Case 2:17-cr-00029-ABJ Document 856 Filed 08/19/19 Page 6 of 11

STANDARD CONDITIONS OF SUPERVISION

1. The defendant shall report to the probation office in the federal judicial district where he or
she is authorized to reside within 72 hours of the time the defendant was sentenced or

released from imprisonment, unless the probation officer instructs the defendant to report to
a different probation office or within a different time frame.
2. After initially reporting to the probation office, the defendant will receive instructions from
the court or the probation officer about how and when to report to the probation officer, and
the defendant shall report to the probation officer as instructed.
3. The defendant shall not knowingly leave the federal judicial district where he or she is
authorized to reside without first getting permission from the court or the probation officer.
4. The defendant shall answer truthfully the questions asked by the probation officer.

5. The defendant shall live at a place approved by the probation officer. If the defendant plans
to change where he or she lives or anything about his or her living arrangements (such as
the people the defendant lives with), the defendant shall notify the probation officer at least
10 days before the change. If notifying the probation officer at least 10 days in advance is
not possible due to unanticipated circumstances, the defendant shall notify the probation
officer within 72 hours of becoming aware of a change or expected change.
6. The defendant shall allow the probation officer to visit the defendant at any time at his or
her home or elsewhere, and the defendant shall permit the probation officer to take any
items prohibited by the conditions of the defendant's supervision that he or she observes in
plain view.
7. The defendant shall work full time (at least 30 hours per week) at a lawful type of
employment, unless the probation officer excuses the defendant from doing so. If the
defendant does not have full-time employment he or she shall try to find full-time
employment, unless the probation officer excuses the defendant from doing so. If the
defendant plans to change where the defendant works or anything about his or her work
(such as the position or the job responsibilities), the defendant shall notify the probation
officer at least 10 days before the change. If notifying the probation officer at least 10 days
in advance is not possible due to unanticipated circumstances, the defendant shall notify the
probation officer within 72 hours of becoming aware of a change or expected change.
8. The defendant shall not communicate or interact with someone the defendant knows is

engaged in criminal activity. If the defendant knows someone has been convicted of a
felony, the defendant shall not knowingly communicate or interact with that person without
first getting the permission of the probation officer.
9. If the defendant is arrested or questioned by a law enforcement officer, the defendant shall
notify the probation officer within 72 hours.

17-CR-29-ABJ-1

JUDGMENT IN A CRIMINAL CASE

Shakeel A. Kahn

PAGE 6 OF 11

A46

Case 2:17-cr-00029-ABJ Document 856 Filed 08/19/19 Page 7 of 11

10. The defendant shall not own, possess, or have access to a firearm, ammunition, destructive
device, or dangerous weapon (i.e., anything that was designed, or was modified for, the
specific purpose of causing bodily injury or death to another person, such as nunchakus or
lasers).

11. The defendant shall not act or make any agreement with a law enforcement agency to act as
a confidential human source or informant without first getting the permission of the court.

12. If the probation officer determines that the defendant poses a risk to another person
(including an organization), the probation officer may require the defendant to notify the
person about the risk and the defendant shall comply with that instruction. The probation
officer may contact the person and confirm that the defendant has notified the person about
the risk.

13. The defendant shall follow the instructions of the probation officer related to the conditions
of supervision.

17-CR-29-ABJ-1

JUDGMENT IN A CRIMINAL CASE

Shakeel A. Kahn

PAGE 7 OF 11

A47

Case 2:17-cr-00029-ABJ Document 856 Filed 08/19/19 Page 8 of 11

FINANCIAL PENALTIES

The defendant shall pay the following total financial penalties in accordance with the schedule of
payments set out below.
Count

Assessment

Restitution

1

$100.00

$5,000.00

Fine

Notes:
2

$100.00

Notes:
4

$100.00

Notes:
5

$100.00

Notes:

6

$100.00

Notes:
7

$100.00

Notes:
8

$100.00

Notes:
9

$100.00

Notes:
10

$100.00

Notes:
11

$100.00

Notes:
12

$100.00

Notes:
13

$100.00

Notes:
14

$100.00

Notes:
16

$100.00

Notes:
17

$100.00

Notes:
17-CR-29-ABJ-1

JUDGMENT IN A CRIMINAL CASE

Shakeel A. Kahn

PAGE 8 OF 11

A48

Case 2:17-cr-00029-ABJ Document 856 Filed 08/19/19 Page 9 of 11

$100.00

18
Notes:

$100.00

19
Notes:

$100.00

20
Notes:

$100.00

21

Notes:

$100.00

22

Notes:

$100.00

23
Notes:

Totals:

$2,100.00

$5,000.00

The fine and/or restitution includes any costs of incarceration and/or supervision. The fine and/
or restitution, which is due immediately, is inclusive of all penalties and interest, if applicable.
The defendant shall pay interest on any fine and/or restitution of more than Two Thousand Five
Hundred Dollars ($2,500.00), unless the fine and/or restitution is paid in full before the fifteenth
day after the date of the judgment, pursuant to 18 U.S.C. § 3612(f). All of the below payment
options are subject to penalties for default and delinquency pursuant to 18 U.S.C. § 3612(g).
The court has determined that the defendant does not have the ability to pay interest or penalties
and it is ordered that:

The interest and penalties not be applied to fine and/or restitution.

17-CR-29-ABJ-1

JUDGMENT IN A CRIMINAL CASE

Shakeel A. Kahn

PAGE 9 OF 11

A49

Case 2:17-cr-00029-ABJ Document 856 Filed 08/19/19 Page 10 of 11

RESTITUTION

The defendant shall make restitution to the following persons in the following amounts:
Name of Payee

Amount of Restitution

Office of the Clerk

$5,000.00

United States District Court

2120 Capitol Avenue
2nd Floor, Room 2131

Cheyenne, WY 82001

17-CR-29-ABJ-I

JUDGMENT IN A CRIMINAL CASE

Shakeei A. Kahn

PAGE 10 OF II

A50

Case 2:17-cr-00029-ABJ Document 856 Filed 08/19/19 Page 11 of 11

SCHEDULE OF PAYMENTS

Payments shall be applied in the following order:(1) assessment;(2)restitution;(3)fine
principal;(4) cost of prosecution;(5)interest;(6)penalties.

The total fine and other monetary penalties shall be due in full immediately.

IT IS ORDERED the defendant shall pay a special assessment fee in the amount of$2,100,
which shall be due immediately. Payments for monetary obligations shall be made payable by
cashier's check or money order to the Clerk of the U.S. District Court, 2120 Capitol Avenue,
Room 2131, Cheyenne, Wyoming 82001 and shall reference the defendant's case number, 17CR-29-ABJ-1. The defendant shall participate in the Inmate Financial Responsibility Program to
pay his/her monetary obligations. The defendant shall pay all financial obligations immediately.
While incarcerated, the defendant shall make payments of at least $25 per quarter. Any amount
not paid immediately or through the Inmate Financial Responsibility Program shall be paid
commencing 60 days after his/her release from confinement in monthly payments of not less
than 10% of the defendant's gross monthly income. All monetary payments shall be satisfied not
less than 60 days prior to the expiration of the term of supervised release.

17-CR-29-ABJ-1

JUDGMENT IN A CRIMINAL CASE

Shakee! A. Kahn

PAGE 11 OF 11

A51

Case 2:17-cr-00029-ABJ Document 844 Filed 08/09/19 Page 1 of 6

FILED

UNITED STATES DISTRICT COURTo|sTfii(fT of"
DISTRICT OF WYOMING

2019 AUG-9 PM k-01
STEPHAN HARRIS, CiJ
CHEYENNE

UNITED STATES OF AMERICA,
Plaintiff,

Case No. 17-CR-0029-ABJ

V.

SHAKEEL A. KAHN, et ai.
Defendants.

ORDER DENYING SHAKEEL A. KAHN'S MOTION FOR NEW TRIAL

This matter came before the Court on Defendant Shakeel Kahn's Motion for New

Trial (Doc. 808), his supplement (Doc. 809), and the Government's response (Doc. 838).

Having considered the parties' arguments, reviewed the record herein, and being
otherwise fully advised, the Court finds the motion should be denied.
BACKGROUND

Dr. Shakeel Kahn and several others were charged together in this drug conspiracy

case, which generally alleged that the defendants and others conspired to unlawfully
distribute controlled substances through Dr. Kahn's medical practices in Arizona and
Wyoming. (Doc. 356.) All defendants except Dr. Kahn and his brother/co-defendant,
Nabeel Khan, pled guilty before trial pursuant to various plea agreements, and the
brothers went to trial before a jury that lasted approximately one month.

At the

conclusion of trial. Dr. Kahn was convicted of all 21 charges he faced. (Doc. 751.) He

now seeks a new trial under Fed. R. Crim. P. 33, alleging the Court erred in several ways.
Page 1 of 6

Appendix C

A52

Case 2:17-cr-00029-ABJ Document 844 Filed 08/09/19 Page 2 of 6

STANDARD OF REVIEW FOR RULE 33 MOTION

A trial court may vacate a conviction and order a new trial under Federal Rule of
Criminal Procedure 33(a) "if the interest of justice so requires." When considering a

motion for new trial, "the court may weigh the evidence and consider the credibility of
witnesses in determining whether the verdict is contrary to the weight of the evidence
such that a miscarriage of justice may have occurred." United States v. Evans, 42 F.3d
586, 593 (10th Cir. 1994) (internal quotation marks and citation omitted).
DISCUSSION

The Court separately considers each ground asserted by Dr. Shakeel Kahn.
1.

Pretrial Motion to Suppress

Dr. Kahn filed a pretrial motion to suppress evidence obtained pursuant to several
search warrants. (Doc. 529.) He again argues there was insufficient probable cause to

support the search warrants and the seizure of the evidence. More specifically, he takes
issue with the Court's refusal to suppress certain patient files that he had altered before

sending them to the Arizona Board of Medicine as part of its investigation into his
prescribing practices. (Doc. 808 at p. 2.)

As Dr. Kahn agrees, his "arguments have been fully briefed and presented to this
court" previously. (Doc. 808 at p. 1.) The Court held an evidentiary hearing on the
motion to suppress, among other motions, on March 21-22, 2019 (Doc. 603), and the
Court issued its written decision on the matter on April 10, 2019 (Doc. 650). There, the

Court carefully considered the search for and seizure of Dr. Kahn's patient files and
determined it complied with the Fourth Amendment. (Id. at pp. 4-10.) After hearing the
Page 2 of 6

A53

Case 2:17-cr-00029-ABJ Document 844 Filed 08/09/19 Page 3 of 6

evidence presented at trial, the Court does not find a basis for ehanging its earlier
decision, and the Government is right that Dr. Kahn "offers nothing new for this court to

consider." (Doc. 838 at p. 3.) Dr. Kahn has not shown the interest of justice requires a
new trial due to this issue.

2.

Spousal Statements Admitted Pursuant to the Crime-Fraud Exception of the
Marital Privilege

On the first day of trial. Dr. Kahn filed a motion to exelude eertain incriminating
statements he made to his wife, Lyn Kahn, arguing they were inadmissible under the
confidential marital communications privilege.

(Doc. 697.)

On May 10, 2019,

immediately prior to any testimony from Lyn Kahn and outside the presenee of the jury,
the Court held an evidentiary hearing on the matter and denied Dr. Kahn's motion after
eoneluding the challenged statements were admissible for three reasons: (1) they were

made before Dr. Kahn and Lyn Kahn were married and thus never protected, (2) they
were made in the presence of others and thus not confidential, and/or (3) they satisfied
the erime-fraud exeeption to the privilege. Dr. Kahn now reasserts the statements did not
meet the crime-fraud exception, though he does not identify any specific statements.

(Doc. 808 at p. 2.) Again, the Court does not find a basis for changing its earlier deeision

that the challenged statements were made between Dr. Kahn and his wife during and in
furtheranee of a criminal conspiracy in which they were both participants. Dr. Kahn has
not shown the interest ofjustice requires a new trial due to this issue.
3.

Dr. Shakeel Kahn's Proffered Jury Instructions

Dr. Kahn next questions some of the jury instructions provided by the Court at

Page 3 of 6

A54

Case 2:17-cr-00029-ABJ Document 844 Filed 08/09/19 Page 4 of 6

trial. He first argues a new trial is warranted "because the jury was instructed that it may
convict him of illegal distribution if it found that the government proved beyond a
reasonable doubt that the controlled substances in question were prescribed 'without a

legitimate medical purpose' or 'outside the usual court of professional practice,"'
whereas the Government should be required to prove both components. (Doc. 808 at p. 3

(emphasis in original).) Dr. Kahn concedes, though, "the Tenth Circuit has already
consistently found that the 'or' language is proper." {Id.) And he's correct. See, e.g..
United States v. Nelson, 383 F.3d 1227, 1233 (10th Cir. 2004); United States v. Miller,

891 F.3d 1220, 1226 (10th Cir. 2018). The Court appreciates Dr. Kahn's disagreement
with the Tenth Circuit, but that disagreement does not warrant a new trial.

He also argues "the Court erred in failing to adopt the remainder" of his proffered

jury instructions and his objections to the Government's proffered instructions. (Doc.

808 at p. 3.) He does not identify any specific instruction or provide any analysis as to

why he thinks the Court erred. In short. Dr. Kahn has not shown the interest of justice
requires a new trial due to this issue.
4.

Dr. Shakeel Kahn's Mid-Trial Motion for Mistrial

In a supplement to his motion for new trial, Dr. Kahn presented a fourth ground in
support of his motion for a new trial. (Doc. 809.) During trial, Diversion Investigator
Robert Churchwell testified that law enforcement was monitoring Dr. Kahn's "jail calls,"

which informed the jury that he was incarcerated while awaiting trial. Dr. Kahn moved
for a mistrial at the time, but the Court denied the motion while giving a limiting

instruction to the jury to disregard the comment. Dr. Kahn argues, "This improper
Page 4 of 6

A55

Case 2:17-cr-00029-ABJ Document 844 Filed 08/09/19 Page 5 of 6

remark warranted a mistrial and the Court erred in denying the motion." (Doc. 809 at p.
1.)

A new trial must be denied on this issue for two reasons. First, "a defendant may

not add new arguments in support of a motion for new trial by including them in an
amendment filed after the time under Rule 33 has expired." United States v. Custodio,
141 F.3d 965, 966 (10th Cir. 1998) {c\X\ng Anthony v. United States^ 667 F.2d 870, 875-

76 (10th Cir. 1981)). Here, Dr. Kahn's extended time for a Rule 33 motion expired on

July 19, 2019, yet his supplement was filed on July 20, 2019. (Docs. 786, 809.) His

request for a new trial based on this ground was untimely, he has offered no excusable

neglect for its tardiness, and it must be denied on that basis. See United States v.
Johnson, 821 F.3d 1194, 1199 (10th Cir. 2016).

Additionally, and ignoring the supplement's tardiness, the argument fails on its
merits. "In determining whether a new trial is required after a witness offers improper
information, we consider '(1) whether the prosecutor acted in bad faith, (2) whether the
district court limited the effect of the improper statement through its instructions to the

jury, and (3) whether the improper remark was inconsequential in light of the other
evidence of the defendant's guilt.'" United States v. Lamy, 521 F.3d 1257, 1266 (10th

Cir. 2008) (quoting United States v. Meridyth, 364 F.3d 1181, 1183 (10th Cir. 2004)).
Nothing suggests the prosecutor acted in bad faith, even previously instructing DI
Churchwell not to mention the fact that Dr. Kahn had been incarcerated. (Doc. 838 at p.

10.) The Court also gave a limiting instruction to the jury to disregard the remark. The

"jury is presumed to follow its instructions," Weeks v. Angelone, 528 U.S. 225, 234
Page 5 of 6

A56

Case 2:17-cr-00029-ABJ Document 844 Filed 08/09/19 Page 6 of 6

(2000), and Dr. Kahn has provided nothing to suggest otherwise.

Finally, the Court

agrees with the Government that "the remark remains highly inconsequential in light of

all the other evidence and testimony presented against the Defendant throughout the
trial." (Doc. 838 at p. 10.) DI ChurchwelFs two-word comment was prejudicial, but it

was little more than a drop in the bucket of evidence and testimony weighing against Dr.
Kahn after a month of trial. There is no reasonable basis to fear that the Jury would not
have convicted Dr. Kahn but for this inartful utterance. Dr. Kahn has not shown the

interest ofjustice requires a new trial due to this issue.
CONCLUSION AND ORDER

Dr. Shakeel Kahn has not met his burden of showing the interests of justice

require a new trial under Fed. R. Grim. P. 33.
IT IS THEREFORE ORDERED that Defendant Shakeel Kahn's Motion for

New Trial (Doc. 808) and his supplement (Doc. 809) are DENIED.
DATED; August

2019.

Alan B. Johnson

^

United States District Judge

Page 6 of 6

A57

Case 2:17-cr-00029-ABJ Document 925 Filed 10/27/19 Page 1 of 194

1
IN THE UNITED STATES DISTRICT COURT

1

FOR THE DISTRICT OF WYOMING

2
3

UNITED STATES OF AMERICA,

4
5
6

Plaintiff,
vs.
SHAKEEL KAHN, NABEEL AZIZ
"SONNY" KHAN aka Nabeel Aziz
"Sonny" Kahn,

DOCKET NO.

17-CR-29-J

Casper, Wyoming
May 21, 2019
10:01 a.m.
VOLUME XVII of XX
(Pages 1 to 193)

7
Defendants.
8
TRANSCRIPT OF TRIAL PROCEEDINGS
9
10
11

BEFORE THE HONORABLE ALAN B. JOHNSON
UNITED STATES DISTRICT JUDGE
and a jury of twelve and three alternates
_______________________________________________________________

12
13
14
15
16
17
18
19
20
21
22

Court Reporter:

Monique Gentry, RPR, CSR
2120 Capitol Avenue, Room 2226
Cheyenne, WY 82001
(307)274-4661/mkg.gentry@gmail.com

23
24
25

Proceedings recorded by stenography; transcript produced with
computer-aided transcription.
MONIQUE GENTRY, RPR, CSR

Appendix D

A58

mkg.gentry@gmail.com

Case 2:17-cr-00029-ABJ Document 925 Filed 10/27/19 Page 4 of 194

4
1

(Proceedings recommenced at 10:01 a.m.; May 21, 2019.)

2

(Proceedings commenced in chambers with counsel, without

3

defendants.)

4

THE COURT:

All right.

Ms. Westover, we are now in

5

the presence of the court reporter.

6

to the prosecution in this matter is to state their objections

7

to the instructions.

8
9

And first direct question

We will note that we have had a meeting for an hour
and 45 minutes, anyway, where the parties were outside the

10

presence of the court reporter have discussed and made changes

11

to the proposed instructions in this matter, and we have

12

arrived at the time when counsel have an opportunity to state

13

their objections to the instructions that will be given.

14
15

MR. KUBICHEK:

modified, we have no objections to the proposed instructions.

16

THE COURT:

17

MS. WESTOVER:

18

Your Honor, for the Government, as

Ms. Westover?
Your Honor, I'm going to --

Mr. Brindley?

19

MR. BRINDLEY:

Yes.

20

MS. WESTOVER:

Would you mind doing this, because it

21

is a little bit difficult over the phone?

22
23
24
25

MR. BRINDLEY:

I will.

You can tell me if I miss

any.
We are going in order.

We -- Judge, we had an

objection to Instruction Number 20 as stated in our written

MONIQUE GENTRY, RPR, CSR

A59

mkg.gentry@gmail.com

Case 2:17-cr-00029-ABJ Document 925 Filed 10/27/19 Page 5 of 194

5
1
2
3

objections filed before the Court.
THE COURT:

The objection is overruled, and

Instruction 20 will be given as reflected.

4

MR. BRINDLEY:

5

Instruction Number 21, Your Honor.

6

THE COURT:

7

MR. BRINDLEY:

8
9

We also had an objection to

That objection is overruled.
Your Honor, Jury Instruction Number 25

was modified according to our objections.
Blair, do you agree with that?

10

MS. WESTOVER:

I agree with that.

11

MR. BRINDLEY:

So we don't -- we have no more

12

objection to Instruction Number 25.

13

We had an objection to Number 26.

14

MS. BOWEN:

15
16
17
18

Your Honor, we joined in that objection

for Nabeel Khan.
THE COURT:

The Court will give the instruction as we

have submitted it, and overrule the objection.
MR. BRINDLEY:

Your Honor, we object to Instruction

19

Number 27, which is an objection to the Tenth Circuit's use of

20

the disjunctive, rather than the conjunctive, with respect to

21

outside the scope of legitimate medical practice and without a

22

legitimate medical purpose.

23

MS. BOWEN:

We joined as to Nabeel Khan as well.

24

THE COURT:

The Court will overrule the objection,

25

noting the language in U.S. v. Nelson.

MONIQUE GENTRY, RPR, CSR

A60

mkg.gentry@gmail.com

Case 2:17-cr-00029-ABJ Document 925 Filed 10/27/19 Page 6 of 194

6
1

MR. BRINDLEY:

Your Honor, with respect to

2

Instruction Number. 29, we raised an objection with respect to

3

the buyer/seller language.

4

adopting part of our language.

5

request the entire paragraph that we submitted.

6
7
8

MS. BOWEN:

The Court did make a modification
We maintain our objection and

We joined in that as well, Your Honor,

for Nabeel Khan.
THE COURT:

The Court will overrule the objection;

9

however, we did add language to Instruction Number 29

10

reflecting that conspiracy requires more than just a

11

buyer/seller relationship between defendant and another person

12

or persons.

13

seller had a joint criminal objective of further distributing

14

controlled substance to others.

15

And the Government must prove that the buyer and

MR. BRINDLEY:

I believe that as modified Jury

16

Instruction Number 34 -- Ms. Westover, would you agree that as

17

modified we have no objection?

18

MS. WESTOVER:

Yes.

19

MR. BRINDLEY:

No objection to 34.

20

We had an objection to 35.

21

THE COURT:

Court struck the last sentence of 35 and

22

will give Instruction 35 stating establish that Jessica Burch's

23

death resulted from a defendant's conduct.

24

not prove that the death was foreseeable to the defendant, and

25

overrule the objection.

MONIQUE GENTRY, RPR, CSR

A61

The Government need

mkg.gentry@gmail.com

Case 2:17-cr-00029-ABJ Document 925 Filed 10/27/19 Page 7 of 194

7
1
2
3
4
5

MR. BRINDLEY:

We had objection to Jury Instruction

Number 36.
THE COURT:

The Instruction Number 36 will be given

without change, and the objection is overruled.
MR. BRINDLEY:

With respect to Instruction Number 37,

6

Ms. Westover, do you agree that as modified, this instruction

7

is being given according to our request?

8

MS. WESTOVER:

I believe so, yes.

9

MR. BRINDLEY:

We still take issue with the

10

conjunctive versus disjunctive, but other than that, we

11

withdraw our objections.

12

Number 37 besides that.

13
14
15

We don't have an objection to

We had an objection to Instruction Number 39, the
good faith instruction.
THE COURT:

The Court pulled a surprise upon counsel

16

and furnished a new good faith instruction this morning which

17

the parties object to.

18

given, and the objection is overruled.

19

MS. BOWEN:

As modified, that instruction will be

Your Honor, since we are on the good

20

faith, I guess this would be a good time to say that we still

21

propose our good faith instruction as to Nabeel Khan.

22

believe that a good faith instruction is important as he is not

23

being held to the same standard as a doctor, and that he

24

should, as I indicated in my motion, be held to a good faith

25

belief that what he was doing was not a crime.

MONIQUE GENTRY, RPR, CSR

A62

We

mkg.gentry@gmail.com

Case 2:17-cr-00029-ABJ Document 925 Filed 10/27/19 Page 8 of 194

8
1
2

THE COURT:

I will overrule the -- and reject the

tendered instruction, and overrule the objection.

3

MR. BRINDLEY:

That brings us to Number 41, Judge.

4

As modified, the Court adopted the defendant's position.

5

not have an objection any longer as Number 41.

6

We do

With respect to Number 54, the Court modified the

7

instruction according to some of the language or much of the

8

language requested by the defendant, but we maintain our

9

objection that it should read new and intended rather than just

10
11
12

new.
THE COURT:

The objection is overruled, and you

objected to the disjunctive language as well.

13

MR. BRINDLEY:

14

MS. BOWEN:

Yes.

I think the disjunctive language,

15

Your Honor, that kind of goes through all of these

16

instructions, and I think we -- both parties would probably say

17

we would object to it wherever it appears.

18

MR. BRINDLEY:

Yes.

Uniformly, Judge, we object to

19

the use of conjunctive, rather than disjunctive throughout the

20

instructions.

21

THE COURT:

22

MR. BRINDLEY:

The Court will overrule the objection.
With respect to Instruction 73, we had

23

an objection.

24

modification, so we have no further objection to Number 73.

25

The Court agreed to our objection and made the

MS. BOWEN:

Your Honor, we had joined in that

MONIQUE GENTRY, RPR, CSR

A63

mkg.gentry@gmail.com

Case 2:17-cr-00029-ABJ Document 925 Filed 10/27/19 Page 9 of 194

9
1

objection.

2

have any objection to that.

3
4

I would agree, we don't have any -- we no longer

MR. BRINDLEY:

And Ms. Westover, if I am correct,

that exhausts the defendants' objections to the instructions?

5

MS. WESTOVER:

That is correct.

6

MR. BRINDLEY:

All right.

7

THE COURT:

And does it as well for Nabeel Khan?

8

MS. BOWEN:

It does.

9

THE COURT:

And I made a suggested change to the

I'm sorry.

Yes, it does.

10

verdict form in this matter.

11

that at the conclusion of the Government's case, the Court

12

heard from both parties -- both defendants in this matter, Rule

13

29 motions for judgment of acquittal.

14

Let the record further reflect

The Court reserved ruling on those motions and will

15

deny the motions, submitting this case to a jury of fellow

16

citizens for their determination.

17

establish a prima facie case with regard to the claims that are

18

asserted, save and except the claim against Nabeel Khan that he

19

brandished the firearms -- a firearm.

20

the motion concerning Nabeel Khan and the charge that he

21

brandished.

22

Finding the Government did

And the Court will grant

It is interesting that in that respect that there is

23

admission at least of brandishing a firearm by Shakeel Kahn.

24

Well, thanks to Mr. Thompson.

25

We have agreed as to the length of -- anything else

MONIQUE GENTRY, RPR, CSR

A64

mkg.gentry@gmail.com

Case 2:17-cr-00029-ABJ Document 925 Filed 10/27/19 Page 10 of 194

10
1

in this conference, so that I have forgotten?

2

You will get to listen to me for a long time.

3

MS. BOWEN:

Your Honor, I am assuming at some point

4

are going to break for lunch, or how did you anticipate working

5

the rest of the day?

6

THE COURT:

7

I am not going to interrupt anybody's

closing statement for lunch or anything of that nature.

8

MS. BOWEN:

9

all of the closings?

Are we going to go straight through with

10

MR. BRINDLEY:

11

THE COURT:

12

MS. SPRECHER:

13

16
17
18
19

We are not.
Are we breaking for lunch after the

instructions are read?

14
15

No.

MR. BRINDLEY:

That is what I thought we were going

to do.
THE COURT:

Well, I think that would make sense at

this point.
Now, I probably will stop my instructions at
Instruction Number 75.

20

MR. BRINDLEY:

21

THE COURT:

22

MR. BRINDLEY:

All right.

23

MS. WESTOVER:

Thank you.

24

THE COURT:

25

Which one is 75, Judge?

These are the general instructions.
Thank you, Blair.

Blair, this is Judge Johnson.

I

appreciate your thoughtful approach in this matter.

MONIQUE GENTRY, RPR, CSR

A65

mkg.gentry@gmail.com

Case 2:17-cr-00029-ABJ Document 925 Filed 10/27/19 Page 11 of 194

11
1

MS. WESTOVER:

Thank you, Judge.

2

(Off the record.)

3

(Proceedings reconvened on May 21, 2019; 10:56 a.m.)

4

(Following in the presence of counsel, the defendants and

5

the jury.)

6
7
8
9

THE COURT:
jury.

Thank you, Ladies and Gentlemen of the

Please be seated.
I will now instruct you on the areas of law that will

guide your deliberations on each of the charges that are

10

involved in this case.

11

opportunity to during their closing statements that they will

12

be making to you later to refer to and to display any of these

13

instructions for your viewing as they make their closing

14

statements as well.

15

The attorneys, of course, will have the

You will have copies of the instructions with you

16

that you will take into jury room when you go to deliberate.

17

will review this with you.

18

is the original of the instruction.

19

have various documents in them.

I

One is a true copy, and the other
The instructions are -- I

20

There is an original copy of the verdict form upon

21

which the jury will record its unanimous decision concerning

22

the charges in the Third Superseding Indictment.

23

a copy of that Third Superseding Indictment behind the verdict

24

form, which I would urge you to review and read for your

25

understanding of the charges in this matter.

MONIQUE GENTRY, RPR, CSR

A66

There is also

mkg.gentry@gmail.com

